U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rolando Cruz, Jr. v. United States of America,
S.Ct. No. 20-1523

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 23,
2021, and placed on the docket on April 30, 2021. The government’s response is due on June 1,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1523
CRUZ, ROLANDO JR.
USA

PETER GOLDBERGER
50 RITTENHOUSE PLACE
ARDMORE, PA 19003
610-649-8200
PETER.GOLDBERGER@VERIZON.NET
TIEFFA N. HARPER
FEDERAL PUBLIC DEFENDERS OFFICE
800 KING STREET
SUITE 200
WILMINGTON, DE 19801
302-573-6010
TIEFFA_HARPER@F.ORG

